20-5707
SUPREME COURT OF THE
UNITED STATES AUGFILED
0 8 2020
OFFICE OF THE CLERK
SUPREME COURT ii

PETITION FOR WRIT OF CERTIORARI
Up

Ruth E. Reeves, Plaintiff
vs.

i

i
n

K-i 11
B if m

Mark Esper, Secretary Defense of United States Military &
Mr. Mongell, CEO of Fort Walton Beach Medical Center
From the United States District Court, Northern District of Florida,
Pensacola Division; Ruth Ellen Reeves vs. Mark Esper, Secretary
Defense of United States Military & Mr. Mongell, CEO of Fort Walton
Beach Medical Center; case number 3:20cv3658-RV/HTC
and the United States Court of Appeals for the Eleventh Circuit;
case number 20-11406-D.

.Ruth Ellen Reeves, 320 Boxer Avenue, Niceville, FL 32578
(850) 225-3977. No attorney.

Case Number:
3 of 30

CONSTITUTIONALLY RELEVANT QUESTIONS FOR
THE UNITED STATES SUPREME COURT
1. Is it legal for a court to render judgment on a case before the case is heard
from the Plaintiff and/or the Defendants?
2. Is it legal for a medical institution to violate CMS regulations and refuse to
answer a patient's grievance?

3. Is it legal for a court to cause unnecessary delays and obstruct justice?
4. Is it a violation of human rights to administer 460 Volts of electricity to a
patient's brain (ECT) against their will?
5. Is it legal to Baker Act someone for going to a hospital to save his/her life?
6. Is it legal to force a person to take dangerous psychiatric drugs?
7. Is it legal for a CMS regulated medical facility to falsify hospital records to hide
treatment that has been forced on a patient?
8. Is it legal to force person to be your patient, against their will, knowing an
extreme violation of ethics exists?
9. Is it legal for a doctor or military institution to forcibly remove a civilian from
all possibility of ever obtaining the Degree he/she has worked so hard to obtain?
4 of 30

MORE CONSTITUTIONALLY RELEVANT QUESTIONS FOR
THE UNITED STATES SUPREME COURT
10. Is it legal for a military institution to follow and harass an individual across
several state lines in an effort to generate a psychological condition that does not
exist in that person?
11. Is it legal for a military institution to interfere in an automobile accident
insurance claim of any civilian individual and not provide an explanation to that
person?
12. Is it legal for a military institution to intervene in the actions of a lawyer that
is currently representing a civilian in an automobile accident that occurred off
base?
13. Is it legal for a military institution to have a civilian individual pulled off the
highway while traveling out of state, and have that person held there without
cause for several hours?
14. Is it legal for a military installation to offer an Army soldier an early release
from the Army, in exchange for having her parent permanently institutionalized?

5 of 30

STILL MORE CONSTITUTIONALLY RELEVANT QUESTIONS FOR
THE UNITED STATES SUPREME COURT
15. Is it legal for a military installation to hide pertinent medical facts from a
former patient regarding internal organ damage obviously caused from poison?
16. Is it legal for a military installation to turn away law enforcement
investigation of attempted murder, when there is evidence that poison was a
factor in the illness of the patient?

17. Is it legal for a military maneuver to take place in which the 18-wheeler driven
by an Army Ranger purposely runs off the road to impair the victim's ability to
drive in heavy traffic?

18. Is it legal for a military installation to set up an ambush for an innocent and
stable civilian upon arrival (with soldiers and ambulances), in order to fulfill their
ambition of having him/her permanently institutionalized?
19. Is it legal for military personnel to enter the private residence of a civilian
living off base to harass and make his/her life feel threatened?
20. Is it legal for a military institution to purposely give false diagnosis to civilian
institutions that are to perform a medical procedure on a civilian?

6 of 30

T\

CONCLUSION OF CONSTITUTIONALLY RELEVANT QUESTIONS
FOR THE UNITED STATES SUPREME COURT
21. Is it legal for a military institution to refuse to provide a patient of his/her
right to a diagnosis as to what almost killed him/her?
22. Is it legal for a CMS medical facility to institutionalize a person, due to
religious beliefs?

7 of 30

LIST OF ALL PARTIES TO THE PROCEEDING IN THE COURTS
WHOSE JUDGMENTS ARE SOUGHT TO BE REVIEWED Rule 12.6
11TH CIR. R. 26.1-3 CERTIFICATE OF INTERESTED PERSONS
Cannon, Hope T.; United States Magistrate Judge
Drey, Kathryn W.; Assistant U.S. Attorney
Esper, Mark T.,; Secretary of Defense, for actions on behalf of Eglin Air Force Base
Hospital, Eglin Air Force Base, Florida; and for actions on behalf of
Fort Drum Army Base, NY. Defendant/Appellee
Keefe, Lawrence; United States Attorney
Mongell, CEO FWB Medical Center; Defendant/Appellee
Reeves, Ruth. 320 Boxer Avenue, Niceville, Florida.
Solicitor General of the United States, Judgment is sent to Room 5616 -Department of Justice, at 950 Pennsylvania Avenue, NW,
in Washington, DC 20530-0001.

Vinson, Roger; Senior United States District Judge, CIVIL DOCKET FOR CASE
#: 3:20cv3658-RV/HTC, from the United States District Court of the Northern
District of Florida in Pensacola.
Wilson, Charles, R.; United States Circuit Judge

8 of 30

CORPORATE DISCLOSURE STATEMENT
CORPORATE DISCLOSURE STATEMENT: Rule 29.6 -- There is no parent or
publicly held company owning 10% or more of any corporations stock pertaining
to this case. Except that the Fort Walton Beach Medical Center is partners with
Twin Cities Hospital of Niceville.

9 of 30

TABLE OF CONTENTS
MOTION TO PROCEED IN FORMA PAUPERIS

.

FINANCIAL AFFIDAVIT

Attached

COVER PAGE

Page 1

Page 3

CONSTITUTIONALLY RELEVANT QUESTIONS FOR
THE UNITED STATES SUPREME COURT..............

Page 4

LIST OF ALL PARTIES TO THE PROCEEDING IN THE COURTS WHOSE JUDGMENTS
ARE SOUGHT TO BE REVIEWED & CIP
Page 8
CORPORATE DISCLOSURE STATEMENT

Page 9

TABLE OF CONTENTS

Page 10

INDEX OF APPENDICES

Page 11

TABLE OF AUTHORITIES

Page 13

PETITION FOR REVIEW OF JUDGMENT OF A UNITED STATES
COURT OF APPEALS / WRIT OF CERTIORARI .....................

Page 16

BASIS FOR FEDERAL JURISDICTION

Page 16

REASONS FOR GRANTING THE PETITION

Page 17

MOTION TO SUBPOENA WITNESS

Page 25

PETITION FOR EMERGENCY EXPEDITED CONSIDERATION
FROM THE UNITED STATES SUPREME COURT.................

Page 28

IN CONCLUSION

Page 29

CERTIFICATE OF COMPLIANCE

Page 29

CERTIFICATE OF SERVICE

Page 30

10 of 30

INDEX OF APPENDICES

Appendix CS of C
A Concise Statement of the Case.

Appendix OMG
First hand eye witness test message testimony: Dated August 7,2020. This index
contains evidence of Eglin AFB's further meetings with my family, behind my back.
It also contains evidence from a first-hand witness to the execution that the FWB
Medical Center never had any intention of providing law mandated evidence that
the execution did in fact take place, until the Plaintiff was rendered legally dead
by the hospital and was sent to their morgue.

Appendix I
Entry of Dismissal: Dated August 5, 2020.
Letter acknowledging second request for proceeding In Forma Pauperis: Dated
July 15, 2020.
Letter from the United States Court of Appeals for the Eleventh Circuit docketing
the case to be Appeal Number 20-11406-D dated April 15, 2020.

Appendix II
Letter from the United States Court of Appeals, Eleventh Circuit requesting
resubmission of Certificate of Interested Persons and Corporate Disclosure
Statement, dated April 29, 2020. The letter is followed by Plaintiff's Supplemental
Brief in compliance with the court, dated May 4, 2020.
11 of 30

Appendix III
Plaintiff s Second Supplemental Brief in Reply to Court with the Second
Motion to Proceed In Forma Pauperis, dated May 23,2020. This is followed by
the letter from the U. S. Court of Appeals for 11th Circuit’s letter dated May 14,
2020 stating that the District Court Docket No. 3:20-cv-03658-RV-HTC has denied
Plaintiff’s right to proceed in forma pauperis ~ without required written
explanation to the Plaintiff. The third paragraph instructs the Plaintiff to either
pay the fees or reapply to proceed in forma pauperis.

Appendix IV
Notice of Council form for Appellees with a Certificate of Interested Persons,
dated June 3, 2020.
Notice that there is no Corporate Disclosure Statement on behalf of the
Appellees, nor do they respond to the case as is required to respond to the

court

within 30 days.

Appendix V
The United States District Court of Appeals, Eleventh Circuit Judge Charles Wilson
signed order stating that the case is frivolous and proceeding without full
payment of fees is denied, dated June 30, 2020 and mailed July 1, 2020.

Note: The following, separately large clasped documents
are
the entire case as filed with the United States District Court
of Appeals, Eleventh Circuit. It is separately indexed in its'
entirety.
12 of 30

TABLE OF AUTHORITIES
The United States Constitution. The Constitution of the United States of America
was founded to prevent America from becoming a Totalitarian country.
ARTICLE III. THE UNITED STATES CONSTITUTION - Section 1. The judicial Power
of the United States, shall be vested in one supreme Court, and in such inferior
Courts as the Congress may from time to time ordain and establish. The Judges,
both of the supreme and inferior Courts, shall hold their Offices during good
Behaviour, and shall, at stated Times, receive for their Services a Compensation
which shall not be diminished during their Continuance in Office.
DECLARATION OF INDEPENDENCE -- In Congress, July 4,1776. - We hold these
truths to be self-evident, that all men are created equal, that they are endowed
by their Creator with certain unalienable Rights, that among these are Life,
Liberty and the pursuit of Happiness. — That to secure these rights.
Governments are instituted among Men, deriving their just powers from the
consent of the governed.
Pace vs. Evans, 709 F.2d 1428 (11th Cir. 1983)
reverse the denial of leave to
proceed in forma pauperis in the district court, and remand to the district court
for further proceedings. Because of the delay that has ensued through no fault of
the plaintiff, the matter should be treated with some expedition in the district
court. VACATED AND REMANDED.
Conley v. Gibson, 355 U.S. 41,45-46,78 S.Ct. 99,101-102, 2 L.Ed.2D 80 (1957)
that: a complaint should not be dismissed for failure to state a claim unless it
appears beyond doubt that the plaintiff can prove no set of facts in support of his
claim which would entitle him to relief.
CMS Guidelines, a hospital must respond to a patient grievance within a span of
seven days.
Due Process: The legal requirement that the state must respect all legal rights
that are owed to a person. Due process balances the power of law of the land
and protects the individual person from it.
18 U.S.C. § 1503 defines "obstruction of justice" as an act that "corruptly or by
threats of force, or by any threatening letter or communication, influences,
obstructs, or impedes, or endeavors to influence, obstruct, or impede, the due
13 of 30

administration of justice. Obstruction is a broad crime that may include acts such
as perjury, making false statements to officials, witness tampering, jury
tampering, destruction of evidence, and many others. There is no statute of
limitations on "obstruction of justice" for violent felonies.
Violent felony crimes, like murder, have no statute of limitations.
Id. at 721.29. See Grasso, supra note 24, at 4-5. The casual connection between
an injury and the federal government may remain obscure or hidden for some
time. The injury itself may remain unknown for decades following the actual
medical negligence. [This] will often delay presentation of a valid tort claim
beyond the apparently proper limitations period.
Association of American Physicians and Surgeons (AAPS) adopted a list of patient
freedoms in 1990, which was modified and adopted as a 'Patients' Bill of Rights' in
1995: The text of the AAPS Patients' Bill of Rights reads:
"All patients should be guaranteed the following freedoms:
• To seek consultation with the phvsician(s) of their choice:
• To contract with their physician(s) on mutually agreeable terms;
• To refuse medical treatment even if it is recommended by their physician(s);
• To be informed about their medical condition, the risks and benefits of
treatment and appropriate alternatives;
• To refuse third-party interference in their medical care, and to be confident
that their actions in seeking or declining medical care will not result in thirdpartv-imposed penalties for patients or physicians:
§ 681.10 What happens if a defendant falls to file an answer?
•

(d) Except as otherwise provided in this section, when a defendant fails to
file a timely answer, the defendant waives any right to further review of the
penalties and assessments imposed in the initial decision.

O'Connor v. Donaldson, 422 U.S. 563 (1975), was a landmark decision in mental
health law. The United States Supreme Court ruled that a state cannot
constitutionally confine a non-dangerous individual who is capable of surviving
safely in freedom by themselves or with the help of willing and responsible family
members or friends. Since the trial court jury found, upon ample evidence, that

14 of 30

petitioner did so confine respondent, the Supreme Court upheld the trial court's
conclusion that petitioner had violated respondent's right to liberty.
Rennie v. Klein, 462 F. Supp. 1131 (D.NJ. 1978), was a case heard in the United
States District Court for the District of New Jersey in 1978 to decide whether
an involuntarily committed mental patient has a constitutional right to
refuse psychiatric medication. It was the first case to establish that such a patient
has the right to refuse medication in the United States.
The Federal Tort Claims Act, (FTCA) is a 1946 federal statute that permits private
parties to sue the United States in a federal court for most torts committed by
persons acting on behalf of the United States. Under the FTCA, the United States
is liable in the same manner and to the same extent as a private individual under
like circumstances.
CLEARWATER, Fla., Nov. 15, 2018 (GLOBE NEWSWIRE) - The Florida chapter of
the Citizens Commission on Human Rights (CCHR), a mental health watchdog
established in 1969 by the Church of Scientology and psychiatrist Dr. Thomas
Szasz, applauds a recent Supreme Court decision in Victoria. Australia that ruled
the forcible use of electroshock treatment (ECT) violates patients' human rights.
The Victoria case involved two patients who refused ECT, one who she said she
was concerned about ECT causing her memory loss—A WELL-KNOWN
DEBILITATING EFFECT OF THE PROCEDURE THAT SENDS UP TO 460 VOLTS OF
ELECTRICITY THROUGH THE BRAIN. A state psychiatric agency overrode the
patients' decisions and claimed one woman lacked the capacity to "carefully
consider" ECT's "advantages" and "disadvantages." THE SUPREME COURT
JUDGE, JUSTICE KEVIN BELL, SAID THE AGENCY HAD FAILED TO RESPECT THE
TWO PATIENTS' HUMAN RIGHTS. "A PERSON DOES NOT LACK THE CAPACITY TO
GIVE INFORMED CONSENT SIMPLY BY MAKING A DECISION THAT OTHERS
CONSIDER TO BE UNWISE ACCORDING TO THEIR INDIVIDUAL VALUES AND
SITUATION," HE STATED.

15 of 30

PETITION FOR REVIEW OF JUDGMENT OF
THE UNITED STATES DISTRICT COURT OF NW FLORIDA &
THE 11TH CIRCUIT, UNITED STATES COURT OF APPEALS

PETITION FOR A WRIT OF CERTIORARI
BASIS FOR FEDERAL JURISDICTION: A United States Court of Appeals has
entered a decision in a manner that directly conflicts with the laws addressed by
that particular court and used that case as "cause". Due process has been denied.
Unnecessary lengthy delays have purposely been placed on the case, and justice
is undeniably obstructed. A United States District Court has refused to follow due
process and dismissed the case without having any consideration regarding the
strong merits of the case. This Plaintiff was declared legally dead by the Fort
Walton Beach Medical Center, due to the actions taken and that murder has no
statute of limitations. 18 U.S.C. § 1503 this is an "obstruction of justice", and has
no statute of limitations.

The United States Supreme Court has the authority to review the case and judge
its' merits to see that human rights will cease being abused and order fair
compensation to the victim of governmental neglect, abuse, and interference. So
help me God! Murder is by no means frivolous, as implied by the U.S. District
Court of Appeals judges to be with their judgment passed on June 30, 2020 signed
16 of 30

by United States Circuit Judge, Charles R. Wilson (see Appendix V). Statutory
provision for The United States Supreme Court to confer on both of these Court
jurisdictions, in which the United States is a party, to review on a writ of certiorari
the judgments in question is found in Article III, Section II of the Constitution.
REASONS FOR GRANTING THE PETITION: This case holds massive national
interest.

We the people of the United States, in order to form a more perfect Union,
establish Justice, ensure domestic Tranquility, provide for the common
defense, promote the general Welfare, and secure the Blessings of Liberty
to ourselves and our Posterity, do ordain and establish this Constitution for
the United States of America.
This case began with Plaintiff being poisoned by someone other than herself. I
went to the Eglin AFB Hospital to try to save my life. After being deathly low on
Potassium three days in a row, seven veins collapsing due to severe dehydration
before being able to administer the third day in a row of IV's, I then flat-lined
three times on their good heart monitor. With a needle being dug into the bone
for several minutes for reasons unknown to Plaintiff, I asked to be tested for
poison. I was then illegally Baker Acted. I fled the hospital. I was then picked up

17 of 30

by the Niceville Police Department and was forcibly transported to the Fort
Walton Beach Medical Center and held captive for 7 days and nights. O'Connor v.
Donaldson, 422 U.S. 563 (1975), was a landmark decision in mental health law.
The United States Supreme Court ruled that a state cannot constitutionally
confine a non-dangerous individual who is capable of surviving safely in freedom
by themselves or with the help of willing and responsible family members or
friends. Since the trial court jury found, upon ample evidence, that petitioner did
so confine respondent, the Supreme Court upheld the trial court's conclusion that
petitioner had violated respondent's right to liberty.
While being held captive, Plaintiff was refused the right to a medical doctor or
treatment for the poison that had evidentially been proven to be consumed and
the life-long lasting impairments that it did to all of my internal organs. I was
subjected to Patricia Harrison's conflict of interest (established in the large packet
Appendix B) and forced to take dangerous, black label, psychiatric medications.
Rennie v. Klein, 462 F. Supp. 1131 (D.N J. 1978), was a case heard in the United
States District Court for the District of New Jersey in 1978 to decide whether
an involuntarily committed mental patient has a constitutional right to
refuse psychiatric medication. It was the first case to establish that such a patient
has the right to refuse medication in the United States.
18 of 30

Then I was subjected to several electrical shocks after being rendered unable to
do anything about laying there naked on a table unable to move a muscle — while
both of my sisters and eldest daughter happily and eagerly watch and participate
in the electric volts penetrating my brain until I was deemed legally dead by the
FWB Medical Center. That was a despicable, horrific, and torturous example of
rape that resulted in murder. Judge Wilson, frivolous is not the word for any
matter contained in this case.

To uphold the dismissal of this case. - as done by the United States District Court
of Northwest Florida signed by Senior United States District Judge, Roger Vinson,
on March 30, 2020 (as shown in Index #5 of the large attached case as filed with
the United States District Court of Appeals for the Eleventh Circuit on April 7,
2020) is another obstruction of justice and a violation of every Constitutional
Right of a citizen to be secure against governmental intrusions in their life. The
summation of the case by the District Court of Northwest Florida is that a citizen
of the United States of America is unable to bring suit upon the United States
Military; naming the Secretary of Defense as minister (because it involves more
than one branch of the military) and a medical institution as an affiliate brought
into the matter by the United States Military (that later also involves another
medical affiliate of that medical institution), naming that hospital's CEO because
19 of 30

he was rightfully notified of the illegal actions taken and did nothing (even
refusing to respond as required by CMS guidelines) -- would be establishing this
country as a Totalitarian country. To conclude that a citizen is unable to sue the
government for harsh neglect of duty to protect Plaintiffs Constitutional rights to
life, liberty, and the pursuit of happiness is to say that our government is
centralized and dictatorial and requires complete subservience to the state. This
is of huge national interest. Families, even those with active-duty members, can
sue the government for negligence under the Federal Tort Claims Act. This
injured party has filed an administrative claim with the proper agency of the
United States government within the required amount of time.
Plaintiff applied for original jurisdiction with the United States Supreme Court in
January 2020. Based on the fact that the United States Military is named as
Defendant with the Secretary of Defense, Mark Esper, named as minister of the
military; along with their affiliate, The Fort Walton Beach Medical Center with Mr.
Mongell named as the CEO. AAPS Patients' Bill of Rights -- this case consists of
Plaintiff's AAPS Patients' Bill of Rights being literally stripped away from existence.

CMS Guidelines, a hospital must respond to a patient grievance within a span of
seven days. Mr. Mongell, CEO of Fort Walton Beach Medical Center was sent

20 of 30

plaintiff's grievance in writing, failed to respond; then was hand delivered with a
signed receipt of delivery the same grievance. The Fort Walton Beach Medical
Center is required by CMS, in order to accept Medicare and Medicaid at their
institution, to answer the grievance in writing. Failure to answer the grievance
what-so-ever is an admission of all facts contained within the written grievance
filed by the patient/Plaintiff, because the only time a hospital is not required to
respond in writing is when the facts contained in their response can be used
against them in a court of law. All letters and receipt of letters are provided in'
the large attached packet of original case, as presented to the U.S. District Court
of Appeals 11th Circuit, are indexed and tabulated under "LETTERS". § 681.10
What happens if a defendant fails to file an answer? When a defendant fails to
file a timely answer, the defendant waives any right to further review of the
penalties and assessments imposed in the initial decision.
Plaintiff has complied with the United States Supreme Court decision to first
address the United States District Court of Northwest Florida in Pensacola.
After it was docketed and approved to proceed in forma pauperis, it was
dismissed by the magistrate whose decision was upheld by the Judge; without
demanding that the defendants even reply to the case. Due process was denied

21 of 30

for the handling of the case. The legal process was annihilated and justice is
obstructed by the District Court. (See Tab # 5 of large attached packet.)
Plaintiff then appealed to the United States District Court of Appeals, 11th
Circuit in Atlanta, Georgia. After a lengthy extended period of time, the 11th
Circuit denied the right to proceed in forma pauperis, stating that the District
Court sent them a letter saying the Plaintiff does not qualify for proceeding
without pay. Plaintiff was directed to reapply to proceed in forma pauperis
without regard to Rule 24 (2) that states when Plaintiff is approved to proceed in
forma pauperis in the District Court it is automatically carried over in the appeal,
unless the District Court provides ALL CONCERNED an explanation in writing for
the denial. The District Court has not provided Plaintiff with any explanation in
writing or otherwise.
Plaintiff again applies to proceed in forma pauperis. After another extended
period of time, the 11th Circuit sends Plaintiff a court order signed by Judge
Wilson judging that the case is too frivolous to proceed without full payment to
the court, citing case history of Pace vs. Evans, 709 F.2d 1428 (11th Cir. 1983).
This is in and of itself a final judgment on the case given by United States Circuit
Judge Charles R. Wilson, and moves authority to the United States Supreme Court

22 of 30

to review the case and render judgment. In the case of Pace vs. Evans, 709 F.2d

1428 (11th Cir. 1983)

they reversed the denial of leave to proceed in forma

pauperis in the district court, and the case was remanded to the district court for
further proceedings. The case was not dropped!
Here you now, because of the delay that has ensued is through no fault of the
plaintiff, the matter should be treated with some expedition in the United States
Supreme Court. Because the United States District Court of Appeals, 11th Circuit,
uses case history created within their court against the Plaintiff that should be
applied in favor of the Plaintiff; as that particular case history concludes as rule of
law. It is proven that the District Court and the District Court of Appeals is clearly
wasting the Plaintiffs time, money, and energy; while perverting justice. 18 U.S.C.
§ 1503 this is an obstruction of justice and has no statute of limitations.
PLAINTIFF NOW PETITIONS THE UNITED STATES SUPREME COURT FOR A WRIT
OF CERTIORARI.

Both of the defendants should be mandated to reply to each and every charge
that is made against them in the complaint. There is nothing frivolous about a
case in which the United States Military has not only denied Constitutional Rights
to the Plaintiff, but has abused her and interfered in many areas of her life,

23 of 30

liberty, and pursuit of happiness. This case involves not only an illegal Baker Act;
it involves an obvious abuse of human rights that is hereby placed before the
United States Supreme Court to determine if administering 460 Volts of electricity
to the brain is legal for any person to force upon another. The results of these
unauthorized ECT treatments resulted in the murder of the Plaintiff regardless of
the fact that God breathed the breath of life back into the Plaintiff -- IT WAS
MURDER! I pray you now will deem that the Supreme Court decision in Victoria,
Australia that ruled the forcible use of electroshock treatment (ECT) violates
patients' human rights to be true in the United States of America.
When the Plaintiff remembered what happened (that was confirmed less than
two years ago - and is within the Statute of Limitations to sue for damages surely
done), the United States Military conspired to have Plaintiff permanently
institutionalized, interfered in an automobile accident claim (costing the Plaintiff a
loss of $185,000 to survive), and had Plaintiff permanently removed from the
ability to obtain a Bachelor Degree in Teaching Education that I was only 6 weeks
away from obtaining, and they used a small fleet of 18 wheelers to follow and
harass Plaintiff across many state lines. See exhibit A of the large packet,
photographic evidence that the United States Military was who was driving the 18
wheeler that purposely ran into my little old Toyota car and damaged it. He had
24 of 30

to swerve way off the highway he was on into the off street that I was parked on,
waiting to enter the highway. May he rest in peace!
The United States Military affiliate, Fort Walton Beach Medical Center, illegally
held Plaintiff captive, denied my human rights to resist enduring electrical torture,
and administered several torturous electrical shocks to my brain; until I, the
Plaintiff, was deemed legally dead and was sent to the morgue beneath the
hospital. There is no statute of limitations on murder.
To Judge Wilson, the day you wake up in the morgue and pull off your own toe
tag from being horrifically and shamelessly tortured to legal death will be the day
that you can look this Plaintiff in the eyes and state how you honestly feel about
anything regarding this case as being frivolous.

MOTION TO SUBPOENA WITNESS
Conley v. Gibson, 355 U.S. 41,45-46,78 S.Ct. 99,101-102, 2 L.Ed.2D 80 (1957)
that: a complaint should not be dismissed for failure to state a claim unless it
appears beyond doubt that the plaintiff can prove no set of facts in support of his
claim which would entitle him to relief. Plaintiff respectfully requests the court to
subpoena the black female mortician that was startled while working on the
plaintiff in the Fort Walton Beach Medical Center's morgue, as a witness to the
25 of 30

most important claim stated in this case. That will prove beyond a shadow of a
doubt that Plaintiff was deemed legally dead, due to the illegal actions taken by
the Fort Walton Beach Medical Center.
Furthermore, photographic evidence has already been provided within the
original brief supplied to all courts concerned of the United States Military's
involvement in the 18-wheeler that followed Plaintiff through many state lines
and ran off the road to purposely hit her Toyota Corolla! This photograph is
contained in the large packet Exhibit A.
These are serious charges. Agreed. Evidence is provided and the case is far from
frivolous. It is now up to the United States Supreme Court to review the evidence
and submit judgment. Justice delayed is justice denied. All people are supposed
to be created equal, as stated in the Declaration of Independence. For any judge
to be unaware of such implications is an infraction against the Third Article of the
Constitution of the United States!
Plaintiff has been denied due process, all along. Justice for murder has been
extremely obstructed as provided by 18 U.S.C. § 1503, there is no statute of
limitations regarding this matter.

26 of 30

In the large attached packet of original case, indexed under LETTERS, please find
the answer from the United States Military stating that the statute of limitations
has been exceeded. In essence, they state, "Yes we did it. But there is nothing
you can do about it." The casual connection between an injury and the federal
government may remain obscure or hidden for some time. The injury itself may
remain unknown for decades following the actual medical negligence. [This] will
often delay presentation of a valid tort claim beyond the apparently proper
limitations period. Id. at 721.29. See Grasso, supra note 24, at 4-5. However, the
second family member of mine to verify that this Plaintiff was in fact legally dead
was verified less than two years ago. This case has been filed, following proper
procedure, and within all Statutes of Limitations pertaining therewith.

NO FAITH
Plaintiff has no faith what-so-ever in requesting another review from the United
States District Court, Northern District of Florida nor from the United States
District Court of Appeals, Eleventh Circuit in Atlanta, Georgia. It is now up to the
United States Supreme Court to administer judgment and determine if in fact the
Constitution of the United States of America is merely a piece of paper or if in fact
it is the law of this land.

27 of 30

Concise Statement of Case
FIRST; I, the Plaintiff, have attempted to file this case with The United States
Supreme Court all year long. Many attempts have been made by me to file the
case as Original Jurisdiction, naming Secretary of Defense, Mark Esper, as minister
of the United States Military (because this case involves more than one branch of
the military) and as secondary minister in the case CEO Mr. Mongell on behalf of
The Fort Walton Beach Medical Center. The United States Supreme Court
repeatedly denied to accept Original Jurisdiction. A copy of the request for
Original Jurisdiction was also sent to the Peace Palace, International Court.
SECOND, the case was taken to the District Court of Northwest Florida in
Pensacola. The case was docketed and accepted to proceed en forma Pauperis.
Then, before the original complaint had time to reach their office, a couple days
later an unauthorized Magistrate moved to dismiss the case stating that no
person has the right to file an official case against the United States Military or a
hospital. I filed an objection to dismiss the case. The judge affirmed the
Magistrates motion to dismiss the case, notating the objection containing Federal
Statutes allowing private citizens to file cases against the United States Military
and hospitals.

Concise Statement of Case -- Page 1 of 9

THIRD, The United States District Court of Appeals, 11th Circuit, in Atlanta,
Georgia refused to allow the case to proceed en forma Pauperis, stating that the
District Court has denied my rights to do so. I, the Plaintiff, reapplied to proceed
en forma Pauperis twice more quoting Federal Statutes stating that the Plaintiff is
supposed to automatically be granted the right to proceed en forma Pauperis
following the prior granting given by the District Court. Furthermore, the District
Court, according to the Federal Statute, has to provide all concerned a reason not
to permit proceeding en forma Pauperis in writing to ALL parties concerned. No
one is more concerned than I, the Plaintiff. No explanation was ever granted, in
writing or otherwise.
FOURTH, the United States District Court of Appeals, 11th Circuit, in Atlanta,
Georgia's judge rendered judgment on the case (without any explanation given by
the District Court) stating that it is too frivolous to proceed en forma Pauperis.
FIFTH, The United States District Court of Appeals, 11th Circuit, in Atlanta, Georgia
dismissed the case; because I the Plaintiff as a result of the circumstances
contained within the case have been left destitute, unable to work, and without
any income what-so-ever.

Concise Statement of Case - Page 2 of 9

EMERGENCY BASIS OF THE CASE:
Plaintiff seeks expedition of the case by The United States Supreme Court.
Plaintiff is unable to work, and has no income at all due to this case. I have had to
place my beloved home up for sale, in order to survive. It is my prayer that an
expeditious judgment be made upon the case by The United States Supreme
Court, before I am forced to lose the only thing remaining that has not been taken
from me because of this case. Time is of the essence. Attempts have been made
on my life, repeatedly. Due to this case, I remain unable to exercise my
Constitutional given right to bear arms even within the confines of my own home.
Justice has been denied, due to this case.
FACTS OF THE CASE:
This case encompasses the safety and interest of the society all over The United
States of America. I personally witnessed many people that were being forced to
endure the electrical shock "therapy" at The Fort Walton Beach Medical Center.
The "psychiatrist" overseeing my case was NOT licensed to practice such, yet did
it anyway. Since that time, she has become licensed to force the same treatment
given to me. Evidence of her unethical conflict of interest to take my case is

Concise Statement of Case -- Page 3 of 9

contained within the appendices. Therefore, even more local members of society
are at increased risk.

I, the Plaintiff, went to the Eglin AFB Hospital three days in a row. Deathly low on
Potassium and severely dehydrated, the Eglin AFB Hospital seen evidence that I
had in fact been poisoned; I flat-lined three times in the Emergency Room on the
third day. I left the Eglin AFB Hospital, went to breakfast at the Waffle House with
my granddaughter, daughter, and son-in-law. At their trailer, I was forcibly
removed by the Niceville Police Department and transferred back to Eglin AFB
then to the Fort Walton Beach Medical Center. I did not give consent for such.
At the Fort Walton Beach Medical Center, I was kept prisoner for a week. I was
denied my right to see a doctor and denied my right to a sanity hearing. I was
forced to take dangerous psychiatric chemicals that were already black-labeled,
and endured surprise attack electrical shocks with 460 volts of electricity being
repeatedly sent to my one and only brain. I was executed to death, later to wake
up in the morgue. While recovering, I was forced to endure horrendous torture
of a screaming nurse telling me that I could do nothing about what they have
done to me. During my imprisonment, my family was informed by the hospital

Concise Statement of Case - Page 4 of 9

that I would never be given written evidence of what they had all done to me.
EVIDENCE of that is in the OMG appendix.
My family did in fact sign for me to forcibly endure the electrical shock execution
that did in fact render me legally dead. If not legally dead in a hospital, there truly
should be a law against that particular hospital sending you to their morgue to
have their mortician do whatever it is that morticians do to bodies. Both of my
sisters and "mother" stole my entire inheritance (two houses and $100,000), they
have reason to want me buried six feet under.
The physical harm of not being permitted to see a medical doctor, while being
kept prisoner within the walls of the Fort Walton Beach Medical Center is
permanent on all of my internal organs. This has rendered my permanently
disabled, especially when coupled with my family purposely breaking my neck to
the point of no return. The hospital held proof that I had in fact been poisoned.
They refused to allow me to see a medical doctor. No antidote was ever
administered. They break Federal Statutes in the refusal to hand-over my
personal medical records and in complete disregard to reply to my complaint.
Therefore, they are not currently in legal compliance with Federal Statutes

Concise Statement of Case -- Page 5 of 9

regarding their continuous flow of money from all large insurance companies;
most explicably TriCare - the one they billed for my abuse and murder.
Even though the execution and murder was professionally programmed to be
forgotten, I did remember. The hospital records office did in fact verify the facts
in person (with Patricia Harrison in the room), but informed me that even though
they are supposed to be able to print them out for me -- JoAnn was forbidden to
print the written proof by Patricia Harrison. The harassment and torture done by
the United States Military and The Fort Walton Beach Medical Center and their
affiliates that follows is horrific and terrifying.
I was forcibly removed from the Bachelor Degree in Teaching Education that I had
been working on for years, just six weeks before obtaining it. All the work was
done. It was to no avail. I can never obtain that degree. I remain without any
chance of being able to monetarily sustain myself; because of this case.
Medical records are illegally withheld. The hospital and military had evidence
that I had been poisoned and STILL insisted on treating me as if I were a severely
mentally disturbed person. When I asked a doctor to obtain my records and tell
me what almost killed me multiple times, my right to a diagnosis was not only
denied -- my freedom was nearly taken from me forever, just because I

Concise Statement of Case - Page 6 of 9

r
p

(s

f
l
If-

remembered what The Fort Walton Beach Medical Center did to me. Justice is
.A

denied and the victim is further victimized.

E'

Y

i-

i*,

At this point, the United States Army became involved. My youngest daughter
was offered an early out of the Army, dependent on me being permanently and
illegally institutionalized. I was called to drive to New York to pick up my
grandchildren (who were never told that I was coming -- because no intention of
me making it to New York existed). I was followed/harassed, and purposely
terrified. An ambulance was following me from North Carolina to Washington DC,
up to New York. Another ambulance was waiting to take me away, when I arrived
at Fort Drum, New York. They tried to break into my hotel room before I got to
New York -- after harassing me outside my first hotel room door all night long the
night before. The things that were said and done were unspeakable. Yet I remain

V

f
f;

with a sound mind, despite their efforts. Their plans failed. My daughter was not
only not permitted to get out of the Army early, she was kept longer — and she

r

ttsn
A
t

said it was all my fault!
One of the 18 wheelers that surrounded me and tried to entrap me during the
extended trip through Hades purposely ran off the highway and smashed the side

k

E

r.

of my Toyota Corolla on the outskirts of Washington DC during the rush hour. My

A

Hi '

i.

F-

Concise Statement of Case -- Page 7 of 9

Family is what every person in the world considers to be most important above
all. Due to this case, I am torn apart from my entire family. I remain not
permitted to have contact with my beloved grandchildren. My grandchildren
mean more to me than life itself. This is the worst imposition that this case has
placed on my life.
I, Ruth Reeves, the Plaintiff linger: Completely alone, permanently disabled, fully
destitute, denied justice, and unable to protect myself from future harm -because of this case. I respectfully ask The United States Supreme Court to
acknowledge that there is nothing frivolous about this case. In the Name of God, I
ask you to administer a speedy judgment before my beloved home is gone
forever. If justice does not prevail within this court, The United States of America
is truly a Totalitarian Government. If justice does not prevail here and now, 1 pray
that you administer judgment before I waste another penny on another home in
The United States of America.
Everything I have said to you is the truth, the whole truth, and nothing but the
truth. So, help me God!

C

Concise Statement of Case — Page 9 of 9

